TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2014 Statutory Review
                      of Compliance With Legal Guidelines
                              When Issuing Levies



                                     September 22, 2014

                             Reference Number: 2014-30-078




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Redaction Legend:
1 = Tax Return/Return Information


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


FISCAL YEAR 2014 STATUTORY                             and manual levies determined that there were
REVIEW OF COMPLIANCE WITH LEGAL                        27 (90 percent) taxpayers who did not receive a
GUIDELINES WHEN ISSUING LEVIES                         new notice of intent to levy after an additional
                                                       assessment was made on a tax period listed on
                                                       the levy. IRS management stated that they
Highlights                                             have since made computer programming
                                                       changes to correct this problem.
Final Report issued on                                 In addition, a review of a statistical sample of
September 22, 2014                                     30 Integrated Collection System taxpayers with
                                                       additional assessments included in the systemic
Highlights of Reference Number: 2014-30-078            levies determined that there were 18
to the Internal Revenue Service Commissioner           (60 percent) taxpayers who did not receive a
for the Small Business/Self-Employed Division.         new notice of intent to levy after an additional
                                                       assessment was made on a tax period listed on
IMPACT ON TAXPAYERS                                    the levy.
When taxpayers do not pay delinquent taxes,            WHAT TIGTA RECOMMENDED
the IRS has the authority to work directly with
financial institutions and other third parties to      TIGTA recommended that the IRS issue interim
seize taxpayers’ assets. This action is                guidance and retrain revenue officers to exclude
commonly referred to as a “levy.” The law              from levies additional assessments for which
requires the IRS to notify taxpayers at least          taxpayers have not been given 30 calendar
30 calendar days prior to the issuance of a levy.      days’ notice.
WHY TIGTA DID THE AUDIT                                In response to the report, IRS management
                                                       agreed with the recommendation. IRS
This audit was initiated because TIGTA is              management plans to issue guidance to the
responsible for annually determining whether           Field Collection group managers and update
the IRS complied with the IRS Restructuring            Fiscal Year 2015 continuing professional
and Reform Act of 1998 requirement to notify           education for revenue officers to emphasize the
taxpayers prior to issuing levies. The overall         requirement that levies not include periods for
objective of this review was to determine              which an additional assessment was made but a
whether the IRS has complied with the legal            new Letter 1058, Final Notice of Intent to Levy
requirement to timely notify taxpayers prior to        and Notice of Your Right to a Hearing, has not
issuing levies per Internal Revenue Code               been sent to the taxpayer.
Section 6330, Notice and Opportunity for
Hearing Before Levy.
WHAT TIGTA FOUND
The IRS is protecting taxpayers’ rights when
issuing systemic and manual levies in cases for
which additional assessments were not included
in the levy. TIGTA reviewed statistical samples
of systemic and manual levies issued by the
Automated Collection System and the Integrated
Collection System and determined that controls
ensured that taxpayers were given notice of their
appeal rights at least 30 calendar days prior to
the issuance of the levies.
However, a review of a statistical sample of
30 Automated Collection System taxpayers with
additional assessments included in the systemic
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 22, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                         Michael E. McKenney
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2014 Statutory Review of Compliance
                               With Legal Guidelines When Issuing Levies (Audit # 201430003)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has complied with the legal requirement to timely notify taxpayers prior to issuing levies
 per Internal Revenue Code Section 6330, Notice and Opportunity for Hearing Before Levy.1
 This review is included in our Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. If you have any questions, please contact me or Bryce Kisler, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).




 1
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
 Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
 of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
                                  Fiscal Year 2014 Statutory Review of Compliance
                                     With Legal Guidelines When Issuing Levies




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Levies Issued by the Automated Collection System
          Function Complied With Notification Requirements
          Except in Cases With Additional Assessments ............................................ Page 3
          Levies Issued by the Collection Field Function Complied
          With Notification Requirements Except in Cases With
          Additional Assessments ................................................................................ Page 5
                    Recommendation 1:.......................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measure ................................................................ Page 13
          Appendix V – Example of a Form 668-A, Notice of Levy............................ Page 15
          Appendix VI – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 16
          Appendix VII – Glossary of Terms .............................................................. Page 17
          Appendix VIII – Management’s Response to the Draft Report ................... Page 19
        Fiscal Year 2014 Statutory Review of Compliance
           With Legal Guidelines When Issuing Levies




                 Abbreviations

ACS        Automated Collection System
DCW        Data Center Warehouse
ICS        Integrated Collection System
IRS        Internal Revenue Service
TIGTA      Treasury Inspector General for Tax Administration
                             Fiscal Year 2014 Statutory Review of Compliance
                                With Legal Guidelines When Issuing Levies




                                            Background

When taxpayers do not pay delinquent taxes, the Internal Revenue Service (IRS) has the
authority to work directly with financial institutions and other third parties to seize taxpayers’
assets. This action is commonly referred to as a “levy” (see Appendix V for an example of a
Form 668-A, Notice of Levy). The IRS Restructuring and Reform Act of 19981 created the
provisions of Internal Revenue Code2 Section 63303 that require the IRS to notify taxpayers of
the intention to levy at least 30 calendar days before initiating a levy action to give the taxpayer
an opportunity to formally appeal the proposed levy. Generally, only one notice of intent to levy
is required per tax period. However, a new notice is required when an additional assessment
occurs on a tax period after the original notice of intent to levy has been sent to the taxpayer and
the additional assessment amount will be included in the levy.
The IRS Restructuring and Reform Act of 1998 added
Internal Revenue Code Section 7803(d)(1)(B), which
requires the Treasury Inspector General for Tax                            TIGTA is required to annually
                                                                               verify whether the IRS is
Administration (TIGTA) to annually verify whether the                           complying with the IRS
IRS is complying with the levy provisions of the Act.                      Restructuring and Reform Act
This is the sixteenth year in which we have evaluated the                  of 1998 requirement to notify
controls over levies. While levies can be issued for                     taxpayers of the intention to levy
monetary or physical assets,4 this report specifically                    at least 30 calendar days before
                                                                                initiating a levy action.
addresses levies of taxpayers’ monetary assets.
To collect delinquent taxes, levies are issued either
systemically or manually by two operations within the IRS:
       The Automated Collection System (ACS), through which customer service
        representatives contact delinquent taxpayers by telephone to collect unpaid taxes
        and secure tax returns.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix VII for a glossary of terms.
3
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
4
  Examples of physical assets are real property, automobiles, and business inventory, the taking of which is
commonly known as seizures. Annual reporting of seizures is covered by TIGTA in a separate review.
                                                                                                           Page 1
                                 Fiscal Year 2014 Statutory Review of Compliance
                                    With Legal Guidelines When Issuing Levies



          The Collection Field function, through which revenue officers contact delinquent
           taxpayers in person. Delinquent cases assigned to revenue officers in the field offices are
           controlled and monitored on the Integrated Collection System (ICS).
However, there is a higher risk when revenue officers issue manual levies because they request
these levies outside of the systemic controls that exist on the ICS and not all manual levies
receive managerial approval. Because the ICS is not generating the manual levies, the IRS
cannot reliably track them. Therefore, it is impossible to determine the exact number of manual
levies issued by revenue officers during our review period.
TIGTA audit reports issued prior to Fiscal Year 20055 reported that additional controls were
needed over manual levies issued by revenue officers; however, since our Fiscal Year 2005
report, we have reported that revenue officers properly notified taxpayers of their right to a
hearing when issuing manual levies. Nevertheless, TIGTA still considers manual levies to be
higher risk and will continue to thoroughly test them.
Previous TIGTA audit reports have recognized that the IRS has improved controls over the
issuance of systemically generated levies, primarily due to the development of systemic controls
in both the ACS and the ICS. In prior years, we determined that the ACS and ICS systemic
controls were effective. However, in our Fiscal Year 2013 report, we determined a required new
notice of intent to levy was not sent to taxpayers when additional assessments were included on
the levies. Therefore, TIGTA tested controls for taxpayer notifications on additional assessments
more thoroughly in this review by identifying and testing samples of taxpayer cases for which
additional assessments were included in levies issued by both the ACS and the ICS.
This review was performed with information obtained from the Small Business/Self-Employed
Division National Headquarters Collection function office in New Carrollton, Maryland, and the
Wage and Investment Division National Headquarters Filing and Payment Compliance function
in Atlanta, Georgia, during the period February through June 2014. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
    See Appendix VI for a list of previous audit reports related to this review.
                                                                                               Page 2
                             Fiscal Year 2014 Statutory Review of Compliance
                                With Legal Guidelines When Issuing Levies




                                     Results of Review

Levies Issued by the Automated Collection System Function
Complied With Notification Requirements Except in Cases With
Additional Assessments
Our review of systemically generated and manually issued levies in the ACS function showed
that taxpayers’ rights were generally protected in cases for which additional assessments were
not included in the levy. In these cases, controls are in place to ensure that the IRS gives
taxpayers notice of their appeal rights at least 30 calendar days prior to the issuance of the levies.
The first step in the collection process involves mailing taxpayers a series of notices asking for
payment of the delinquent taxes. If taxpayers do not comply, the majority of the accounts are
forwarded to an ACS Call Center where customer service representatives contact taxpayers by
telephone to resolve their accounts. If the delinquent accounts cannot be resolved, these
representatives have the authority to issue levies.
Nearly all levies issued by customer service representatives are generated through the ACS,
which contains a control that compares the date that the taxpayer was notified of the pending
levy with the date requested to actually issue the levy. If there are fewer than 30 calendar days
between the dates, the ACS will not generate a levy. This control is designed to ensure that
taxpayers have been notified of their appeal rights at least 30 calendar days prior to the issuance
of any systemically generated levies.
Although ACS customer service representatives primarily issue levies systemically, they may
also request the issuance of manual levies through the ACS under certain circumstances.6
Manual levies require the same advance notification to the taxpayer as systemic levies.
Tests of statistical samples of 30 taxpayers7 with systemically generated and 30 taxpayers with
manual levies issued through the ACS between October 1, 2012, and September 30, 2013,
showed that all 60 taxpayers were timely notified of their appeal rights.8 However, **1**
*************************************1****************************************
*************************************1****************************************



6
  An example of when a manual levy may be requested is for levies on Individual Retirement Arrangements.
7
  A taxpayer could have more than one levy. Throughout this audit, we reviewed all levies issued during the audit
period for each sampled taxpayer.
8
  TIGTA identified 343,394 taxpayers with systemic levies and 93,433 taxpayers with manual levies issued through
the ACS from October 1, 2012, through September 30, 2013.
                                                                                                          Page 3
                             Fiscal Year 2014 Statutory Review of Compliance
                                With Legal Guidelines When Issuing Levies



***********************************1******************************************
***********1************.
The IRS agreed with TIGTA that **************1**********************************
*************************************1****************************************
**************************1*****************.

Taxpayers were not always notified when additional assessments were included
in levies issued through the ACS
TIGTA selected a statistical sample of an additional 30 taxpayers for whom additional
assessments were included in both systemically generated and manual ACS levies.9 Analysis
showed that for 27 (90 percent) taxpayers, the IRS did not issue a new notice of intent to levy for
the additional assessments prior to the levies being issued. As a result, these taxpayers’ rights
were potentially violated. Five of the 27 cases were taxpayers with manual levies and 22 of the
27 cases were taxpayers with systemic levies.10
IRS management stated that for manual levies, the ACS Entity and Module Screens11 have an
alert to notify the employee that an additional assessment applies to one or several of the tax
periods when issuing a levy. The alert is shown on the Entity and Module Screen for each tax
period to which it applies. The employee can then input a code next to the tax period with the
additional assessment to exclude the tax period from the levy being issued. These procedures are
explained in detail in the Internal Revenue Manual; however, it appears that some employees did
not always follow these procedures as required.
IRS management also stated that a systemic control was put in place in January 2013 to stop both
manual and systemic levies from being issued on tax periods with additional assessments when a
new notice of levy had not been sent. However, programming problems were identified that
subsequently had to be corrected. IRS management stated that further testing of the preventive
control showed that as of October 1, 2013, both ACS manual and systemic levies no longer
included modules with additional assessments for which the taxpayer had not been sent a new
notice of intent to levy at least 30 days prior to levy issuance. Based on this information, we are
not making a recommendation for ACS levies.
IRS management agreed that the taxpayers should have been issued a new notice of intent to levy
and that the taxpayers’ rights were potentially violated. However, because no levy payments
were received on the affected tax periods in the cases, management determined that no corrective
actions were needed. In addition, management also stated that they will identify any levy

9
  TIGTA identified 18,012 taxpayers with additional assessments that were potentially included in issued levies in
the ACS from October 1, 2012, through September 30, 2013. We could not be certain that the additional assessment
amount was included in the levy in this population until we reviewed the actual levy information for each sample
case. This population includes taxpayers with both manual and systemic levies.
10
   In the entire random sample of 30 taxpayers, five had manual levies and 25 had systemic levies.
11
   Used by ACS employees to look up tax information and perform actions on delinquent taxpayer accounts.
                                                                                                          Page 4
                             Fiscal Year 2014 Statutory Review of Compliance
                                With Legal Guidelines When Issuing Levies



payments received on other additional assessments included in levies and take corrective actions
as needed.
Based on a statistical sample of 30 taxpayers from a population of 18,012 taxpayers with
additional assessments potentially included in the levies, we estimate that 12,470 taxpayers had
their rights potentially violated because they were not sent a new notice of intent to levy as
required.12

Levies Issued by the Collection Field Function Complied With
Notification Requirements Except in Cases With Additional
Assessments
Our review of systemically generated and manually prepared levies by the Collection Field
function showed that taxpayers’ rights were protected in cases when additional assessments were
not included in the levies. The IRS gave taxpayers notice of their appeal rights at least
30 calendar days prior to the issuance of the levies in these cases.
Sometimes notices and telephone calls to taxpayers do not successfully resolve delinquent
accounts, and cases have to be assigned to revenue officers in Collection Field function offices
for face-to-face contact with the taxpayers. Cases assigned to revenue officers are controlled on
the ICS. Revenue officers use the ICS to record collection activity on the delinquent cases and to
generate enforcement actions such as levies.
The IRS established a control in the ICS similar to the control in the ACS that prevents systemic
levies from being issued unless taxpayers have been provided notice of their appeal rights at least
30 calendar days prior to the issuance of the levies. If fewer than 30 calendar days have elapsed
since the notice of intent to levy date, the ICS will not generate a levy.
Revenue officers most commonly issue systemic levies through the ICS. However, they are also
authorized to issue manual levies on any case as needed. Managerial review or approval is
generally not required when revenue officers issue manual levies.
Tests of a statistical sample of 30 taxpayers with systemically generated and a statistical sample
of 30 taxpayers with manually prepared levies through the ICS between October 1, 2012, and
September 30, 2013, showed that all 60 taxpayers were timely notified of their appeal rights.13


12
   The projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident that the IRS
potentially violated between 9,438 and 14,950 taxpayer’s rights. See Appendix I for more details on how the
projection was calculated.
13
   TIGTA identified 78,772 taxpayers with systemic levies in the ICS from October 1, 2012, through
September 30, 2013. Because the ICS does not control manual levies prepared by revenue officers, it is difficult to
reliably determine their exact number. However, TIGTA oversampled and reviewed case history comments from
October 1, 2012, through September 30, 2013, for any reference to a manual levy in random selection order until we
identified 30 cases that met the manual levy criteria. See Appendix I for details.
                                                                                                           Page 5
                             Fiscal Year 2014 Statutory Review of Compliance
                                With Legal Guidelines When Issuing Levies



However,********************************1*************************************
****************************************1*************************************
********************1**********************************. While the ****1*******
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
******1*******
IRS management stated that the revenue officers did not follow required Internal Revenue
Manual procedures when issuing the manual levies with additional assessments. In addition, ICS
programming updates are planned to address the additional assessment issue with systemic
levies.
The IRS agreed that the **********************1************************
**************************************1***************************************
***************************************1**************************************
******************************1***********************************************
******1********.

Revenue officers need additional training when additional assessments are
included in levies
TIGTA selected a separate statistical sample of 30 taxpayers for which additional assessments
were included in ICS systemic levies.14 Our analysis showed that 18 (60 percent) taxpayers were
not issued a new notice of intent to levy for the additional assessments prior to the levies being
issued. The IRS agreed that the 18 taxpayers should have been provided a new notice of intent
to levy for the additional assessments prior to issuing the levies and that the taxpayers’ rights
were potentially violated.
We previously identified this issue and reported it in our Fiscal Year 2013 report. IRS
management agreed to update the ICS programming for systemic levies to prevent levy issuance
on tax periods for which an additional assessment has been made and a new notice of intent to
levy has not been sent to the taxpayer. Implementation of the programming changes is scheduled
for January 2015. Because this corrective action has not yet been implemented, we are not
making a new recommendation for this issue.
IRS management subsequently took corrective actions on ************1**************
**************************1************************************. No levy
payments were received on the affected tax periods in the other **1** cases. In addition,


14
  TIGTA identified 4,037 taxpayers with additional assessments potentially included in systemically generated
levies in the ICS from October 1, 2012, through September 30, 2013. We could not be certain that the additional
assessment amount was included in the levy in this population until we reviewed the actual levy information for
each sample case. Taxpayers with manual levies were not included in this population. See Appendix I for details.
                                                                                                          Page 6
                             Fiscal Year 2014 Statutory Review of Compliance
                                With Legal Guidelines When Issuing Levies



management informed us that they will identify any levy payments received on other additional
assessments included in levies and take corrective actions as needed.
Based on a statistical sample of 30 taxpayers from a population of 4,037 taxpayers with
additional assessments potentially included in levies, we estimate that 1,514 taxpayers had their
rights potentially violated because they were not sent a new notice of intent to levy as required.15

Recommendations
Recommendation 1: The Director, Collection Policy, Small Business/Self-Employed
Division, should issue interim guidance and retrain revenue officers on the requirement to
prevent levy issuance on tax periods for which an additional assessment has been made and a
new Letter 1058, Final Notice of Intent to Levy and Notice of Your Right to a Hearing, has not
been sent to the taxpayer.
        Management’s Response: IRS management agreed with this recommendation.
        Specifically, management will issue guidance to the Field Collection group managers and
        update Fiscal Year 2015 continuing professional education for revenue officers to
        emphasize the requirement that levies not include periods for which an additional
        assessment was made but a new Letter 1058, Final Notice of Intent to Levy and Notice of
        Your Right to a Hearing, has not been sent to the taxpayer.




15
  The projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident that the IRS
potentially violated between 896 and 2,039 taxpayer’s rights. See Appendix I for more details on how the projection
was calculated.
                                                                                                           Page 7
                               Fiscal Year 2014 Statutory Review of Compliance
                                  With Legal Guidelines When Issuing Levies



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has complied with the
legal requirement to timely notify taxpayers prior to issuing levies per Internal Revenue Code
Section 6330, Notice and Opportunity for Hearing Before Levy. To accomplish our objective,
we:
I.         Determined whether manual levies issued by both revenue officers and ACS function
           personnel complied with legal guidelines for notification to taxpayers prior to levy
           issuance.
           A. Identified a population of taxpayers with potential manual ICS levies by querying the
              narrative history text field of the ICS open inventory in the Data Center Warehouse
              (DCW)1 database files to identify any references to manual levies issued between
              October 1, 2012, and September 30, 2013.
               1. Selected a statistical sample of 210 taxpayer cases. We selected a statistical
                  sample to ensure each taxpayer case had an equal chance of being selected. We
                  verified cases met manual levy criteria in random selection order until we reached
                  30 cases for review.
               2. Reviewed all levies issued to the 30 taxpayers during our audit period for
                  evidence that appeal rights were sent to the taxpayer at least 30 calendar days
                  prior to levy issuance, including those tax periods with additional assessments
                  included in the levies.
           B. Identified a population of 93,443 taxpayers with manual ACS levies by querying the
              employee number field in the DCW ACS open inventory database files to identify
              levies requested by ACS personnel, indicating manual levies, between
              October 1, 2012, and September 30, 2013.
               1. Selected a statistical sample of 60 taxpayer cases. We selected a statistical sample
                  to ensure each taxpayer case had an equal chance of being selected. We verified
                  cases met manual levy criteria in random selection order until we reached 30
                  cases for review.
               2. Reviewed all levies issued to the 30 taxpayers during our audit period for
                  evidence that appeal rights were sent to the taxpayer at least 30 calendar days



1
    See Appendix VII for a glossary of terms.
                                                                                               Page 8
                        Fiscal Year 2014 Statutory Review of Compliance
                           With Legal Guidelines When Issuing Levies



              prior to levy issuance, including those tax periods with additional assessments
              included in the levies.
II.    Determined whether automated controls for systemic ICS and ACS levies were adequate
       to comply with legal guidelines for notification to taxpayers prior to levy issuance.
       A. Identified a population of 78,772 ICS and 343,394 ACS taxpayers with systemic
          levies issued between October 1, 2012, and September 30, 2013, by querying the ICS
          and ACS databases of open cases maintained in the DCW.
          1. Selected statistical samples of 30 taxpayer cases with systemic ICS levies and
             30 taxpayer cases with ACS systemic levies for review. We selected statistical
             samples to ensure each taxpayer case had an equal chance of being selected.
          2. Reviewed all levies in both samples that were issued to the 30 ICS and 30 ACS
             taxpayers during our audit period for evidence that appeal rights were sent to the
             taxpayers at least 30 calendar days prior to levy issuance, including those tax
             periods with additional assessments included in the levies.
III.   Determined whether IRS controls ensured that taxpayers were properly notified prior to
       levy issuance when additional assessments were included in the levies.
       A. Identified a population of 18,012 ACS (manual and systemic levies included) and
          4,093 ICS (systemic levies included) taxpayers with additional assessments
          potentially included in levies by matching the Taxpayer Identification Number in the
          ICS systemic and the ACS systemic and manual levy populations (previously
          identified) to the Individual Master File and Business Master File databases in the
          DCW. Taxpayers identified had tax periods with: 1) an additional assessment posted
          prior to the levy issuance date and 2) an original notice of appeal rights sent to the
          taxpayer prior to the date of the additional assessment.
          1. Selected statistical samples of 60 ACS and 60 ICS taxpayers. We selected
             statistical samples to ensure each taxpayer case had an equal chance of being
             selected. We verified cases had additional assessments included in the levies in
             random selection order until we reached 30 ACS and 30 ICS cases for review.
          2. Reviewed all levies in both samples in which additional assessments were
             included in the levies issued to the 30 ICS and 30 ACS taxpayers for evidence
             that appeal rights were sent to the taxpayer at least 30 calendar days prior to levy
             issuance.
              a. Projected the error cases to the ACS population based on a 69.23 percent error
                 rate, a 14.66 percent precision, and a two-sided 95 percent confidence
                 interval. Our sample size in the projection was 39 taxpayers because we had
                 to select an additional nine taxpayer cases to obtain our sample size of


                                                                                           Page 9
                         Fiscal Year 2014 Statutory Review of Compliance
                            With Legal Guidelines When Issuing Levies



                  30 taxpayers. This was due to our original sample of 30 taxpayers containing
                  nine cases in which additional assessments were not included in the levies.
               b. Projected the error cases to the ICS population based on a 35.42 percent error
                  rate, a 13.59 percent precision, and a two-sided 95 percent confidence
                  interval. Our sample size in the projection was 48 taxpayers because we had
                  to select an additional 18 taxpayer cases to obtain our sample size of
                  30 taxpayers. This was due to our original sample of 30 taxpayers containing
                  18 cases for which additional assessments were not included in the levies.
           3. Consulted with TIGTA’s contract statistician regarding our projections.
IV.    Validated the manual and systemic levy data from the ACS and the ICS by relying on the
       DCW site procedures that ensure that data received from the IRS are valid. The DCW
       performs various procedures to ensure that it receives all the records in the ACS, the ICS,
       and other various IRS databases. In addition, we scanned the data in each population for
       reasonableness, and we verified the levy and additional assessment data for each sample
       case by comparing it to the Integrated Data Retrieval System transcripts. All the levies
       identified are in the appropriate period, and the data appeared to be logical. We are
       satisfied that the data are sufficient, complete, and relevant to the review.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the Small Business/
Self-Employed Division Collection function’s automated controls in place that prevent the
issuance of levies prior to 30 calendar days before initiating any levy action. We evaluated these
controls by reviewing samples of taxpayer levy cases.




                                                                                          Page 10
                       Fiscal Year 2014 Statutory Review of Compliance
                          With Legal Guidelines When Issuing Levies



                                                                             Appendix II

                 Major Contributors to This Report

Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Phyllis Heald London, Audit Manager
Marcus Sloan, Lead Auditor
Mike Della Ripa, Senior Auditor
Nicole DeBernardi, Auditor




                                                                                     Page 11
                       Fiscal Year 2014 Statutory Review of Compliance
                          With Legal Guidelines When Issuing Levies



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Collection Policy, Small Business/Self-Employed Division SE:S:CS:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 12
                               Fiscal Year 2014 Statutory Review of Compliance
                                  With Legal Guidelines When Issuing Levies



                                                                                       Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
      Taxpayer Rights and Entitlements – Potential; 13,989 taxpayer accounts affected
       (see pages 3 and 5).

Methodology Used to Measure the Reported Benefit:
ACS1
          From a statistical sample of 30 taxpayers with manually issued levies through the ACS
           between October 1, 2012, and September 30, 2013, we identified ***1*************
           *******************************1****************************************
           *******************************1****************************************
           *******************************1***********************************(see
           page 3).
          From a statistical sample of 30 taxpayers with additional assessments included in manual
           and systemic levies issued through the ACS between October 1, 2012, and
           September 30, 2013, we identified 27 cases for which an additional assessment was made
           on a tax period covered by the levy and the IRS did not send the taxpayer a new final
           notification letter for the additional assessment before issuing the levy. We projected the
           27 error cases to the total population of 18,012 taxpayers. We estimate that
           12,470 taxpayers had their rights potentially violated when they were not sent a new
           notice of intent to levy as required (see page 3).2
ICS
          From a statistical sample of 30 taxpayers with systemically generated and 30 taxpayers
           with manual levies issued through the ICS between October 1, 2012, and
           September 30, 2013, we identified *************1********************
           ***********************************1************************************


1
    See Appendix VII for a glossary of terms.
2
    We are 95 percent confident that the point estimate is between 9,438 and 14,950.
                                                                                              Page 13
                                Fiscal Year 2014 Statutory Review of Compliance
                                   With Legal Guidelines When Issuing Levies



           *********************************1**************************************
           ********************************1***************************************
           ********1*********** (see page 5).
          From a statistical sample of 30 taxpayers with additional assessments included in
           systemic levies issued through the ICS between October 1, 2012, and September 30,
           2013, we identified 18 cases for which an additional assessment was made on a tax
           period covered by the levy and the IRS did not send the taxpayer a new final notification
           letter for the additional assessment before issuing the levy. We projected the 18 error
           cases to the total population of 4,037 taxpayers. We estimate that 1,514 taxpayers had
           their rights potentially violated when they were not sent a new notice of intent to levy as
           required (see page 5).3




3
    We are 95 percent confident that the point estimate is between 896 and 2,039.
                                                                                               Page 14
                 Fiscal Year 2014 Statutory Review of Compliance
                    With Legal Guidelines When Issuing Levies



                                                           Appendix V

  Example of a Form 668-A, Notice of Levy




Source: IRS.gov website.

                                                                   Page 15
                         Fiscal Year 2014 Statutory Review of Compliance
                            With Legal Guidelines When Issuing Levies



                                                                                  Appendix VI

                        Previous Audit Reports
                   Related to This Statutory Review

TIGTA, Ref. No. 1999-10-071, The Internal Revenue Service Has Not Fully Implemented Procedures to
Notify Taxpayers Before Taking Their Funds for Payment of Tax (Sept. 1999).
TIGTA, Ref. No. 2000-10-150, The Internal Revenue Service Has Significantly Improved Its Compliance
With Levy Requirements (Sept. 2000).
TIGTA, Ref. No. 2001-10-113, The Internal Revenue Service Complied With Levy Requirements
(Jul. 2001).
TIGTA, Ref. No. 2002-40-176, The Internal Revenue Service Has Improved Controls Over the Issuance
of Levies, But More Should Be Done (Sept. 2002).
TIGTA, Ref. No. 2003-40-129, The Internal Revenue Service Does Not Have Controls Over Manual
Levies to Protect the Rights of Taxpayers (Jun. 2003).
TIGTA, Ref. No. 2004-30-094, Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
When Manual Levies Are Issued (Apr. 2004).
TIGTA, Ref. No. 2005-30-072, Taxpayer Rights Are Being Protected When Levies Are Issued
(Jun. 2005).
TIGTA, Ref. No. 2006-30-101, Fiscal Year 2006 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (Aug. 2006).
TIGTA, Ref. No. 2007-30-070, Fiscal Year 2007 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (Apr. 2007).
TIGTA, Ref. No. 2008-30-097, Fiscal Year 2008 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (Apr. 2008).
TIGTA, Ref. No. 2009-30-070, Fiscal Year 2009 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (May 2009).
TIGTA, Ref. No. 2010-30-068, Fiscal Year 2010 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (Jun. 2010).
TIGTA, Ref. No. 2011-30-036, Fiscal Year 2011 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (Mar. 2011).
TIGTA, Ref. No. 2012-30-095, Fiscal Year 2012 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (Aug. 2012).
TIGTA, Ref. No. 2013-30-092, Fiscal Year 2013 Statutory Review of Compliance With Legal Guidelines
When Issuing Levies (Aug. 2013).
                                                                                            Page 16
                         Fiscal Year 2014 Statutory Review of Compliance
                            With Legal Guidelines When Issuing Levies



                                                                                     Appendix VII

                              Glossary of Terms

                Term                                            Definition

Appeal Rights                      The IRS has an administrative appeals process that works with
                                   taxpayers to try to settle tax disputes in an effort to avoid formal
                                   court hearings. The IRS sends the taxpayer a report and/or letter
                                   that explains proposed adjustments or proposed/taken collection
                                   actions. The letter also tells the taxpayer of their right to request
                                   a conference with an Appeals or Settlement Officer as well as
                                   how to make a request for a conference.
Automated Collection System        A telephone contact system through which customer service
                                   representatives collect unpaid taxes and secure tax returns from
                                   delinquent taxpayers who have not complied with previous
                                   notices.
Business Master File               The IRS database that consists of Federal tax-related transactions
                                   and accounts for businesses. These include employment taxes,
                                   income taxes on businesses, and excise taxes.
Collection Field Function          The unit in the Area Offices consisting of revenue officers who
                                   handle personal contacts with taxpayers to collect delinquent
                                   accounts or secure unfiled returns.
Customer Service Representatives   The duties of a customer service representative are varied. Many
                                   hours are spent on the telephone, working paper cases, or
                                   assisting taxpayers at a Taxpayer Assistance Counter. Paper
                                   cases include both incoming taxpayer correspondence and
                                   internally generated cases.
Data Center Warehouse              An online database maintained by TIGTA. The DCW pulls data
                                   from IRS system resources, such as IRS Collection files and IRS
                                   Examination files, for TIGTA access.
Fiscal Year                        Any yearly accounting period, regardless of its relationship to a
                                   calendar year. The Federal Government’s fiscal year begins on
                                   October 1 and ends on September 30.
Individual Master File             The IRS database that maintains transactions or records of
                                   individual tax accounts.




                                                                                                Page 17
                        Fiscal Year 2014 Statutory Review of Compliance
                           With Legal Guidelines When Issuing Levies




                Term                                           Definition

Integrated Collection System       An information management system designed to improve revenue
                                   collections by providing revenue officers access to the most
                                   current taxpayer information, while in the field, using laptop
                                   computers for quicker case resolution and improved customer
                                   service.
Integrated Data Retrieval System   An IRS computer system capable of retrieving or updating stored
                                   information. It works in conjunction with a taxpayer’s account
                                   records.
Internal Revenue Code              Federal tax law begins with the Internal Revenue Code, enacted
                                   by Congress in Title 26 of the United States Code.
Internal Revenue Manual            The primary, official source of IRS “instructions to staff” relating
                                   to the organization, administration, and operation of the IRS. It
                                   details the policies, delegations of authorities, procedures,
                                   instructions, and guidelines for daily operations for all divisions
                                   and functions of the IRS.
Manual Levy                        A manual ICS levy is a paper levy form that is manually prepared
                                   and issued by a revenue officer. A manual ACS levy is initiated
                                   through the ACS by a customer service representative, resulting
                                   in levy preparation and issuance by the system.
Revenue Officer                    Conducts face-to-face interviews with taxpayers (and/or their
                                   representatives) at the taxpayer’s place of business or residence
                                   or, on occasion, at an IRS office. These interviews may be
                                   unscheduled (cold calls) or scheduled, depending upon the case.
                                   This is done as part of the investigative process of collecting
                                   delinquent taxes and securing delinquent tax returns.
Systemic Levy                      ACS systemic levies are initiated, prepared, and issued
                                   completely by the ACS with no manual intervention necessary.
                                   ICS systemic levies are initiated by revenue officers resulting in
                                   levy preparation and issuance by the system.
Tax Period                         The period of time for which a return is filed. The IRS uses a
                                   four-digit code to indicate the end of the tax period for a given
                                   return. (The first two digits represent the year and the second
                                   two digits represent the month.)




                                                                                              Page 18
        Fiscal Year 2014 Statutory Review of Compliance
           With Legal Guidelines When Issuing Levies



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                          Page 19
Fiscal Year 2014 Statutory Review of Compliance
   With Legal Guidelines When Issuing Levies




                                                  Page 20
Fiscal Year 2014 Statutory Review of Compliance
   With Legal Guidelines When Issuing Levies




                                                  Page 21
